                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                




                     National Association of State
                     Departments of Agriculture
                     Research Foundation Needs to
                     Comply With Certain
                     Federal Requirements and
                     EPA Award Conditions to
                     Ensure the Success of Pesticide
                     Safety Education Programs

                     Report No. 14-P-0131                    March 10, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Angela Bennett
                                                     Philip Cleveland
                                                     Bill Spinazzola




Abbreviations

ACH             Automated Clearing House
CFR             Code of Federal Regulations
EPA             U.S. Environmental Protection Agency
FFR             Federal Financial Report
FY              Fiscal Year
MTDC            Modified Total Direct Costs
NASDA           National Association of State Departments of Agriculture
NASDARF         National Association of State Departments of Agriculture Research Foundation
NBC             National Business Center
OGD             Office of Grants and Debarment
OIG             Office of Inspector General
OMB             Office of Management and Budget
SF              Standard Form


Cover photo: Pesticide being applied to a field. (EPA photo)



 Hotline 	                                      Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

 us through one of the following methods:       contact us through one of the following methods:


 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

           1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T 

           Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency                                               14-P-0131
                        Office of Inspector General                                                    March 10, 2014



                        At a Glance

Why We Did This Review              National Association of State Departments of Agriculture
                                    Research Foundation Needs to Comply With Certain
The U.S. Environmental
Protection Agency (EPA)             Federal Requirements and EPA Award Conditions to Ensure
Office of Inspector General         the Success of Pesticide Safety Education Programs
(OIG) reviewed the funds
drawn by the National                What We Found
Association of State
Departments of Agriculture          NASDARF’s financial management system did not            We questioned
Research Foundation                 meet certain federal requirements and conditions of      $571,626 of potentially
(NASDARF)                           the EPA award. Specifically, NASDARF incorrectly         unallowable costs.
under EPA Cooperative               calculated and applied indirect cost rates, reported
Agreement No. 83456201.             outlays for indirect costs in excess of recorded expenses, and drew funds that
The award provided                  exceeded its cash needs. As a result, we questioned $275,650.
$3.6 million to:
                                    NASDARF did not document its procurement selection process or provide
 Evaluate and improve              documentation to support any cost or price analysis performed on its project
  existing pesticide safety         management subcontract as required by the Code of Federal Regulations
  training programs and             (CFR) in 40 CFR Part 30. NASDARF did not determine the reasonableness of
  materials.                        costs for two subgrants as required by conditions of the award. In addition,
 Identify areas in the program     NASDARF’s written procurement policy lacked procedures to ensure
  where additional pesticide        compliance with 40 CFR Part 30. As a result, we questioned $295,976.
  safety education is needed.
                                    The OIG also identified an unresolved issue pertaining to potentially
The purpose of our                  unallowable costs of $118,324 drawn under a prior EPA award. The costs,
examination was to determine        recorded as a refundable advance, represent funds received as of year-end but
whether costs incurred were         not yet earned.
allowable in accordance with
federal requirements and the         Recommendations and Responses
agreement and whether
NASDARF conducted                   We recommend that the EPA disallow and recover $571,626 pertaining to the
procurements in accordance          financial management and procurement issues. We also recommend that the
with federal regulations and        EPA require NASDARF to recalculate its indirect cost rates to be consistent
the agreement.                      with 2 CFR Part 230 and establish controls to ensure that its financial
                                    management and procurement systems comply with federal requirements and
This report addresses the           conditions of the award. Further, we recommend that certain special conditions
following EPA themes:               be included for all active and future EPA awards until NASDARF meets all
                                    applicable federal financial and procurement requirements. For the $118,324 of
  Embracing EPA as a high          potentially unallowable costs, the EPA should review and recover costs
   performing organization.         determined to be unallowable. NASDARF generally did not agree with the OIG
  Taking action on toxics          findings and recommendations. The EPA agreed with the OIG
   and chemical safety.             recommendations and stated it would work with NASDARF to resolve the
                                    issues.
For further information,
contact our public affairs office    Noteworthy Achievements
at (202) 566-2391.
                                    In response to OIG finding outlines, NASDARF modified its subcontract for
The full report is at:
                                    project management services and its written procurement procedures to include
www.epa.gov/oig/reports/2014/
20140310-14-P-0131.pdf
                                    OIG-recommended requirements pertaining to 40 CFR Part 30.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL



                                                March 10, 2014

MEMORANDUM

SUBJECT:      National Association of State Departments of Agriculture Research Foundation
              Needs to Comply With Certain Federal Requirements and EPA Award Conditions to
              Ensure the Success of Pesticide Safety Education Programs
              Report No. 14-P-0131

FROM:         Arthur A. Elkins Jr.

TO:           Howard Corcoran, Director
              Office of Grants and Debarment
              Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide us your proposed management
decision on the findings and recommendations contained in this report before you formally complete
resolution with the recipient. Your proposed management decision is due in 120 days, or on July 8, 2014.
To expedite the resolution process, please also email an electronic version of your management decision
to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum commenting on
your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal. This report will be available
on our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov; or
Robert Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov.
National Association of State Departments of Agriculture                                                                     14-P-0131
Research Foundation Needs to Comply With Certain
Federal Requirements and EPA Award Conditions to Ensure
the Success of Pesticide Safety Education Programs


                                   Table of Contents 

Chapters
   1	   Independent Accountant’s Report....................................................................                        1


   2    	Introduction ........................................................................................................     4

                 Purpose ......................................................................................................    4     

                 Background ................................................................................................       4     

                 Noteworthy Achievements ..........................................................................                5     

                 NASDARF and EPA Responses .................................................................                       5     


   3	   Results of Examination .....................................................................................               6

                 Recommendation .......................................................................................            7

                 NASDARF and EPA Responses ................................................................                        7

                 OIG Comments ...........................................................................................          7


   4	   Financial Management System Did Not Meet Certain 

        Federal Requirements .......................................................................................               8

                 Indirect Cost Rates Were Calculated and Applied Incorrectly.....................                                  8

                 Reported Costs Exceeded Amounts Recorded in General Ledger .............                                         10 

                 Accepted Cash Management Practices Not Followed ................................                                 11 

                 Conclusion ..................................................................................................    14 

                 Recommendations .....................................................................................            15 

                 NASDARF Response .................................................................................               15 

                 EPA Response ...........................................................................................         17 

                 OIG Comments ..........................................................................................          17 


   5	   Procurements Did Not Meet Federal Requirements or 

        Agreement Conditions.......................................................................................               19

                 Sole-Source Procurement Not Justified; Cost or Price Analysis 

                     Not Conducted .....................................................................................          19 

                 Subgrant Procurements Did Not Comply With Administrative Condition ....                                          20 

                 Written Procurement Policy Does Not Include Required Procedures .........                                        21 

                 Conclusion ..................................................................................................    22 

                 Recommendation .......................................................................................           23 

                 NASDARF Response .................................................................................               23 

                 EPA Response ...........................................................................................         24 

                 OIG Comments ..........................................................................................          24 


   6	   Other Unresolved Issue .....................................................................................              25

                 Recommendation .......................................................................................           26 

                 NASDARF Response .................................................................................               26 

                 EPA Response ...........................................................................................         26 

                 OIG Comments ..........................................................................................          26 


                                                                -continued-
National Association of State Departments of Agriculture                                                                    14-P-0131
Research Foundation Needs to Comply With Certain
Federal Requirements and EPA Award Conditions to Ensure
the Success of Pesticide Safety Education Programs


   Status of Recommendations and Potential Monetary Benefits..............................                                       27 



Appendices
   A    NASDARF’s Comments on Draft Report and OIG Responses ......................                                              28


   B    EPA’s Comments on Draft Report ...................................................................                       39 


   C    Distribution .........................................................................................................   43 

                                   Chapter 1

                Independent Accountant’s Report
            As part of our oversight of assistance agreement awards made by the
            U.S. Environmental Protection Agency (EPA), the Office of Inspector General (OIG)
            examined the costs claimed under Cooperative Agreement No. 83456201 awarded to
            the National Association of State Departments of Agriculture Research Foundation
            (NASDARF). The OIG conducted the examination to determine whether the costs
            incurred were allowable under federal regulations and conditions of the award, and
            whether procurements were conducted in accordance with federal regulations. The
            applicable federal requirements found in the Code of Federal Regulations (CFR)
            include:

                  Title 2 CFR Part 230, Cost Principles for Non-Profit Organizations.
                  Title 40 CFR Part 30, Uniform Administrative Requirements for Grants
                   and Agreements with Institutions of Higher Education, Hospitals, and
                   Other Non-Profit Organizations.

            By accepting funding provided through the agreement, NASDARF has responsibility
            for complying with these requirements. Our responsibility is to express an opinion on
            NASDARF’s compliance based on our examination.

            We conducted our examination in accordance with generally accepted government
            auditing standards issued by the Comptroller General of the United States. We also
            utilized the attestation standards established by the American Institute of Certified
            Public Accountants. We examined, on a test basis, evidence supporting NASDARF’s
            assertion contained in its interim Federal Financial Report (FFR) for the period ending
            January 24, 2013, and performed other procedures as we considered necessary.
            We believe that our examination provides a reasonable basis for our opinion.

            We interviewed EPA personnel from the Office of Grants and Debarment and the
            Office of Pesticide Programs in headquarters, Washington, D.C. We obtained an
            understanding of the agreement and gathered information concerning NASDARF’s
            performance. Specifically, we reviewed NASDARF’s request for proposal to determine
            the objectives of the agreement and project deliverables. We also gathered information
            on criteria relevant to the agreement and reviewed applicable federal requirements,
            including 2 CFR Part 230 and 40 CFR Part 30.

            On January 10, 2013, we conducted an entrance conference with NASDARF.
            We returned to NASDARF’s office in Washington, D.C., the week of January 22,
            2013, to conduct interviews and obtain documentation to address our objectives.




14-P-0131                                                                                    1
            To determine whether the costs incurred by NASDARF were allowable under
            40 CFR Part 30 and conditions of the agreement, we:

               	 Conducted interviews to obtain an understanding of the accounting
                  system, applicable internal controls, and practices followed to administer
                  the agreement.
               	 Reviewed single audit reports for fiscal years (FYs) 2010 through 2012 to
                  identify issues that may have an impact on our examination.
               	 Reviewed internal controls related to the assignment objectives and
                  performed tests to determine whether the controls are in place and
                  operating effectively.
               	 Reviewed compliance with laws, regulations and the terms and conditions
                  of the agreement.
               	 Examined reported outlays on a test basis to determine whether the outlays
                  were adequately supported and eligible for reimbursement under the
                  conditions of the agreement and federal requirements.
               	 Identified required deliverables and determined whether they were 

                  submitted to and accepted by the EPA. 


            To determine whether NASDARF conducted its procurements in accordance with
            40 CFR Part 30, we:

               	 Conducted interviews to obtain an understanding of how NASDARF
                  procured subcontracts and subgrants.
               	 Obtained and reviewed written procurement and contract administration
                  policies and procedures to determine whether they included federal
                  requirements.
               	 Obtained and reviewed supporting documentation for the award of the
                  sole-source subcontract for project management services to ensure
                  compliance with relevant criteria.
               	 Obtained and reviewed supporting documentation for a judgmental sample
                  of three of eight subgrant and subcontract awards to ensure compliance
                  with relevant criteria. The sample represented 81% ($289,943 of
                  $357,995) of the total subgrant and subcontract costs.

            We also reviewed project costs and NASDARF’s drawdown of EPA funds.
            Specifically, we performed the following steps:

               	 Obtained, reviewed and reconciled NASDARF’s interim FFR for the
                  period ending January 24, 2013.
               	 Discussed the FFR preparation with NASDARF to ensure the FFR was
                  prepared in accordance with applicable laws, regulations, and terms and
                  conditions of the cooperative agreement.
               	 Reviewed NASDARF’s drawdown procedures, obtained a draw history,
                  and selected a judgmental sample of three of the 15 draws to determine
                  whether the draws were reasonable and properly supported. The sample

14-P-0131                                                                                   2
                  represented 24% ($350,000 of $1,460,000) of total draws as of December
                  6, 2012. We reviewed supporting invoices, payment documents and
                  associated accounting system entries to determine whether the
                  expenditures were allocable and allowable under 40 CFR Part 30 and the
                  agreement.
               	 Obtained and analyzed monthly bank statements to determine compliance
                  with cash management requirements as described in the administrative
                  conditions of the agreement and under federal regulation.

            We conducted our examination from January 10, 2013 through November 4,
            2013. Our examination disclosed material noncompliance and internal control
            weaknesses with financial management and procurement. In particular,
            NASDARF’s:

               	 Financial management system pertaining to cash draws and project costs
                  does not meet the requirements of the agreement or 2 CFR Part 230 and
                  40 CFR Part 30. Chapter 4 of this report includes a discussion of the
                  noncompliance.

               	 Subcontract procurement of its project manager was not documented and
                  did not include cost and price analysis as required by the agreement or
                  40 CFR Part 30. In addition, the subgrant procurements examined did not
                  comply with the agreement’s administrative condition no. 4(a). Chapter 5
                  of this report presents more details on these conditions.

            Unless NASDARF can demonstrate compliance with all applicable requirements,
            we recommend that the EPA disallow and recover $492,817 of reported costs and
            $78,809 in excess cash draws.

            In our opinion, because of the effect of the issues described above, the costs
            claimed do not meet, in all material respects, the requirements of 2 CFR Part 230
            and 40 CFR Part 30, or the conditions of the agreement for the period ended
            December 31, 2012.




            Robert K. Adachi
            Director for Forensic Audits
            March 10, 2014




14-P-0131                                                                                       3
                                  Chapter 2

                                   Introduction
Purpose	
            The OIG conducted this examination to determine whether NASDARF complied
            with federal requirements and the conditions of EPA Agreement No. 83456201.
            Our objectives were to determine whether:

                  Costs incurred by NASDARF were allowable in accordance with federal
                   requirements and conditions of the agreement.
                  NASDARF followed applicable regulations and conditions of the agreement in
                   its procurement of subcontracts and subgrants.

Background
            The National Association of State Departments of Agriculture (NASDA) is a nonprofit,
            nonpartisan association of public officials comprised of executive heads from 50 state
            departments of agriculture, as well as executives from the U.S. territories of Puerto
            Rico, Guam, American Samoa and the U.S. Virgin Islands. NASDA’s mission is to
            support and promote the American agricultural industry through the development,
            implementation and communication of sound public policy programs. NASDA
            organized NASDARF to design and implement educational programs relating to
            farming and other agricultural activities, and to help state and local government develop
            government programs relating to agricultural activities.

            The EPA awarded Agreement No. 83456201 to NASDARF on March 24, 2010. The
            award provided $3.6 million to support national and international pesticide safety
            education programs designed to reduce the pesticide exposure of agricultural workers
            and pesticide applicators. Pesticide safety education projects not only target workers
            and applicators, but also growers, healthcare providers, and pesticide producers and
            retailers. The purpose of the award was to evaluate and improve existing pesticide
            safety training programs and materials, and identify areas within the programs where
            additional pesticide safety education is needed.

            The EPA awarded the funds based on the authorities provided by:

               	 The Federal Insecticide, Fungicide, and Rodenticide Act, Section 20,
                  which authorizes the agency to issue assistance agreements for research,
                  development, monitoring, public education, training, demonstrations and
                  studies concerning pesticide-related matters.




14-P-0131                                                                                     4
               	 The National Environmental Policy Act, Section 102(2)(F), which
                  recognizes the worldwide and long-range character of environmental
                  problems; and, where consistent with U.S. foreign policy, lends
                  appropriate support to programs designed to maximize international
                  cooperation in anticipating and preventing a decline in the world
                  environment.

            The budget and project period for Agreement No. 83456201 is April 5, 2010,
            through April 6, 2015. This agreement is a continuation of work started under
            NASDARF’s previous EPA Agreement No. 83235401.

            Although NASDARF is not required to submit a standard form (SF) 425 FFR
            until the agreement is completed, NASDARF prepared an interim FFR at the
            OIG’s request. The interim FFR, dated January 24, 2013, covered the period
            April 5, 2010 through December 31, 2012. The FFR included a federal share of
            outlays totaling $1,398,210, cash receipts of $1,460,000 and cash on hand of
            $78,809.

      Noteworthy Achievements
            On June 19, 2013, the OIG issued finding outlines to NASDARF. The outlines
            expressed concern that NASDARF’s project management subcontract did not
            include 40 CFR §30.48(c)(1) and (d) requirements pertaining to breach of contract
            remedies and access to records. The finding outlines included a recommendation
            that NASDARF revise the subcontract to include these requirements. In response,
            NASDARF stated that it had modified the subcontract to reflect the requested
            adjustments. The OIG reviewed the revised subcontract and confirmed the
            provisions were included. NASDARDF also revised its written procurement
            procedures to include OIG-recommended requirements pertaining to
            40 CFR Part 30.

      NASDARF and EPA Responses
            OIG received comments from NASDARF and the EPA concerning the OIG’s
            draft report issued on November 5, 2013. NASDARF also provided supplemental
            documentation to support some comments. Due to the various types and volume
            of documents provided, the OIG did not include NASDARF’s additional
            documentation in this report, but the information is available upon request.

            We held an exit conference with NASDARF on February 12, 2014 to discuss their
            response to the draft report and the impact on our final report. NASDARF
            continued to disagree with our findings.

            The OIG did not hold an exit conference with EPA. Rather EPA requested that
            the OIG proceed with issuing the audit report so they can begin working with
            NASDARF to resolve the findings.

14-P-0131                                                                                   5
                                     Chapter 3

                           Results of Examination
            NASDARF’s procurement practices, methods for determining and claiming
            indirect costs, and drawdown practices for EPA Agreement No. 83456201 did not
            comply with certain federal requirements or agreement conditions. As shown in
            table 1, we questioned $571,626 of reported costs.

             Table 1: Costs reported and questioned for EPA Agreement No. 83456201
             Cost element                               Reported      Questioned            Note
             Travel                                     $ 382,417
             Supplies                                       24,618
             Contractual                                   611,287         295,976           (2)
             Other                                         183,047
             Indirect costs                                196,841         196,841           (3)
                   Subtotal (1)                         $1,398,210        $492,817

             Drawdown amounts                              $1,460,000            78,809      (4)
                 Total                                                         $571,626
             Source: OIG-generated table.

            Note 1: Represents the amount reported (including expenditures and unliquidated
            obligations) on the interim SF 425 FFR prepared by NASDARF and provided to
            the OIG on January 24, 2013.

            Note 2: Contractual costs totaling $295,976 were questioned, including:

                	 Costs of $151,484 for Ramsey Consulting because NASDARF did not
                   perform a cost or price analysis, justify the use of a sole source, or
                   document the basis for the award cost or price of the sole-source award.
                   Chapter 5 of this report discusses this issue in detail.

                	 Costs of $144,492 ($44,492 for University of Florida and $100,000 for
                   CropLife Latin America), because NASDARF did not comply with
                   agreement condition 5a(4) pertaining to the procurement of subgrants.
                   The agreement condition requires that the recipient determine the
                   reasonableness of proposed subgrant costs. NASDARF was unable to
                   provide documentation that the costs were reasonable. Chapter 5 of this
                   report discusses this issue in detail.

            Note 3: We questioned $196,841 of indirect costs because NASDARF did not
            comply with the requirements of its indirect cost rate agreements when
            calculating an indirect cost rate and applying the rate to the allocation base for the
            agreement. The amount questioned also includes a negative amount of $12,896

14-P-0131                                                                                          6
            for costs related to two unsupported adjustments to indirect costs. Chapter 4 of
            this report discusses these issues in detail.

            Note 4: We questioned the cash-on-hand balance of $78,809, which NASDARF
            reported on its interim SF 425, because NASDARF maintained excessive cash
            balances under the agreement and did not use the funds in a timely manner. This
            amount represents the difference in expenditures and receipts. Chapter 4 of this
            report discusses the issue in detail.

Recommendation
            We recommend that the Director of the Office of Grants and Debarment:

               1.	 Disallow and recover $571,626 of questioned costs. If NASDARF
                   provides documentation that meets appropriate federal requirements or
                   demonstrates the fairness and reasonableness of the subcontract and
                   subgrant costs, the amount to be recovered may be adjusted accordingly.

NASDARF and EPA Responses
            NASDARF generally disagreed with our findings and provided a detailed
            response to the issues presented in Notes 2, 3, and 4 above. However, NASDARF
            did not provide a response to recommendation 1 or the recommendations
            contained in chapters 4 and 5. The OIG included a discussion of NASDARF’s
            responses to Notes 2, 3, and 4 and OIG comments in the applicable chapters of
            this report. NASDARF’s complete written response and additional OIG
            comments are included in appendix A.

            The EPA agreed with recommendation 1 and stated it will:

            1.	 Provide NASDARF the opportunity to submit documentation to substantiate the
                questioned costs.
            2.	 Review the documentation and take necessary corrective action, including recovery
                of all or part of the questioned subcontract and indirect costs as well as funds drawn.
            3.	 Work with NASDARF to implement corrective actions to comply with federal
                requirements on assuring the reasonableness of sub-grant, sub-contracts, indirect
                costs and drawdown amounts.

            The EPA’s complete written response is included in appendix B.

OIG Comments

            The OIG agrees with EPA’s intended corrective actions for recommendation 1. However,
            because the EPA did not provide specific planned completion dates for the corrective
            actions, the OIG considers the status of the recommendation unresolved.


14-P-0131                                                                                      7
                                  Chapter 4

        Financial Management System Did Not Meet 

              Certain Federal Requirements 

            NASDARF’s financial management system did not meet certain federal
            regulations and agreement conditions. Specifically, NASDARF:

                  Did not calculate and apply indirect cost rates correctly.
                  Reported outlays for indirect costs in excess of recorded expenses in the
                   general ledger.
                  Drew down funds that exceeded cash needs.

            These conditions occurred because NASDARF did not have controls in place
            to ensure compliance with federal regulations and agreement conditions.
            In calculating indirect cost rates, NASDARF was not aware initially of
            2 CFR Part 230 requirements to exclude subgrants and subcontracts in excess of
            $25,000. NASDARF later interpreted the requirements erroneously and only
            excluded amounts for subgrants but not subcontracts. For the reported outlays,
            NASDARF lacked controls to ensure the recording of adjustments in the general
            ledger. Lastly, NASDARF’s written procedures for drawdowns did not
            incorporate cash-management requirements as described in the administrative
            conditions of the agreement or under federal regulations.

            As described in chapter 3, we questioned $196,841 of indirect costs and $78,809
            related to the excessive cash draws.

Indirect Cost Rates Were Calculated and Applied Incorrectly
            NASDARF did not calculate indirect cost rates in accordance with the
            requirements of its approved indirect cost rate agreements. Additionally,
            NASDARF did not apply the rates to the appropriate allocation base when
            reporting costs under the agreement.

            The U.S. Department of the Interior’s National Business Center (NBC) negotiates
            indirect cost rates for the EPA. The indirect rate agreement between NASDARF
            and the NBC for the fiscal year ending June 30, 2011, states that the allocation
            base for the indirect rate should be total direct costs less capital expenditures
            (i.e., the portion of subgrants or subcontracts in excess of the first $25,000 and
            pass-through funds). This is consistent with 2 CFR Part 230, Appendix A,
            paragraph D.3.f., which references modified total direct costs (MTDC) and states,
            in part:

                   Indirect costs shall be distributed to applicable sponsored awards
                   and other benefiting activities within each major function on the

14-P-0131                                                                                      8
                   basis of MTDC. MTDC consists of all salaries and wages, fringe
                   benefits, materials and supplies, services, travel, and subgrants and
                   subcontracts up to the first $25,000 of each subgrant or subcontract
                   (regardless of the period covered by the subgrant or subcontract).

            Calculation of Indirect Cost Rate

            When calculating the allocation base for FY 2011, NASDARF did not exclude
            any subgrant or subcontract amounts. Subcontracts and subgrants in the allocation
            base for the EPA agreement amounted to $306,563. The OIG’s analysis revealed
            that four subcontractors or subgrantors received payments that exceeded the
            $25,000 limit. NASDARF should have excluded the excess payments totaling
            $86,399 from the allocation base.

            We do not know the effect that this condition has on the indirect cost rate. The
            allocation base consisted of costs from five programs. Our review included only
            the costs in the base for the EPA agreement. We did not determine whether
            NASDARF should have deleted any costs from the other four programs. We
            reviewed the indirect rate calculation for FY 2011 because, at the time of our
            audit, this was the latest year for which NASDARF had an approved final indirect
            cost rate.

            Application of Indirect Cost Rate

            When applying the indirect cost rate to total costs incurred for the EPA
            agreement, NASDARF excluded $66,758 for subgrant and subcontract payments
            that exceeded $25,000. We reviewed subgrant and subcontract payments and
            determined that $286,453 should have been excluded—an increase of $219,695
            over the excluded amount.

            Initially, NASDARF was not aware of the requirement to exclude amounts in
            excess of $25,000. Later, NASDARF misinterpreted the requirements and did not
            exclude amounts for the subcontract that it awarded for project management.
            NASDARF stated it did not consider the project manager to be the same as other
            awards. NASDARF also stated that in order for the award to be financially viable,
            it would need to apply indirect cost rates to the full amount of fees paid.

            NASDARF reported $196,841 of indirect costs under the agreement. We
            questioned the full amount because NASDARF did not calculate and apply the
            rates in accordance with the provisions of its negotiated indirect cost rate
            agreements. To ensure that its indirect cost rates result in an equitable allocation
            of costs, NASDARF should:

               	 Recalculate indirect cost rates after excluding subgrant and subcontract
                  amounts in excess of $25,000, or request the NBC to amend its indirect
                  cost rate agreements to include an equitable allocation base.


14-P-0131                                                                                          9
                  Submit revised indirect cost rates to the NBC for approval.
                  Claim indirect costs using the revised approved rates.

Reported Costs Exceeded Amounts Recorded in General Ledger
            NASDARF was unable to support adjustments made to recorded expenses when
            preparing its FFR. Total outlays reported on the interim FFR were $1,398,210.
            The reported costs exceeded amounts recorded in the general ledger by $4,123.
            NASDARF stated the difference was attributable to three adjustments related to
            indirect costs. NASDARF provided adequate support for unrecorded indirect
            costs of $17,019. However, we did not receive sufficient support for the two
            remaining adjustments. NASDARF stated it had not recorded the amounts in the
            general ledger as expenditures.

            One negative adjustment of $5,183 was to reduce indirect expenses for the
            amount of the CropLife Latin America contract, which exceeded $25,000. The
            remaining negative adjustment of $7,713 was a decrease to FY 2011 indirect costs
            for the difference between the billing and final indirect cost rates. Documents that
            NASDARF provided to support these two adjustments consisted of two summary
            accounting reports with handwritten notes in the margin. Supporting documents
            that show how the amounts were determined were not included.

            The requirements of 40 CFR §30.21(b)(7) state that recipients’ financial
            management systems shall provide accounting records, including cost accounting
            records that are supported by source documentation. In addition, 2 CFR Part 230,
            Appendix A, paragraph A.2g, states that to be allowable under an award, costs
            must be “adequately” documented. As a result, we questioned the two negative
            adjustments totaling $12,896. Table 2 shows NASDARF’s reconciliation of the
            FFR to the general ledger.

            Table 2: Reconciliation of FFR to the general ledger
                                                                           Amounts
             Comparison
               FFR line 10g (total federal share)                              $ 1,398,210
               General ledger report                                             1,394,087
                  Difference                                                        $ 4,123
             Explanation
               Unrecorded indirect costs for December 2012                       $ 17,019
               Adjustment to indirect cost for CropLife contract
               exceeding $25,000                                   ($ 5,183)
               Unrecorded adjustment to FY 2011 indirect costs       (7,713)
               Subtotal adjustments                                               (12,896)
                  Difference                                                      $ 4,123
            Source: Based on information provided by NASDARF.




14-P-0131                                                                                     10
Accepted Cash Management Practices Not Followed
            NASDARF did not follow accepted cash management practices when drawing
            down EPA funds. This resulted in funds being held for excessive periods,
            unnecessary funds drawn, and funds drawn and used for expenses incurred under
            non-EPA programs. As of December 6, 2012, NASDARF made 15 draws totaling
            $1,460,000. Our review of three of the 15 draws showed that NASDARF:

                  Expended funds from 21 to 125 days after drawing the funds.
                  Maintained an average cash balance of $147,029 during the period of
                   July 2010 through February 2013.
                  Used EPA funds to pay expenditures for five other non-EPA programs.

            This occurred because NASDARF’s written drawdown policy does not include
            requirements to minimize the time elapsing between drawing funds and making
            expenditures, as required by the agreement and 40 CFR §30.22(a) and (b).

            In chapter 3 of this report, we questioned $78,809 of excess funds drawn as of the
            interim FFR for the period ending January 24, 2013. This amount is reported as
            cash on hand (line 10c) and represents the excess of cash receipts over cash
            disbursements. NASDARF did not earn interest on the excess cash funds drawn.

            Agreement administrative condition 4(a) states:

                   By accepting this agreement for the electronic method of payment
                   through the Automated Clearing House (ACH) network using the
                   EPA-ACH payment system, the recipient agrees to request funds
                   based on the recipient’s immediate disbursement requirements by
                   presenting an EPA-ACH Payment Request to your EPA Servicing
                   Finance Office. Further, failure on the part of the recipient to
                   comply with the above conditions may cause the recipient to be
                   placed on the reimbursement payment method.

            Title 40 CFR §30.22(a) states, in part:

                   Payment methods shall minimize the time elapsing between the
                   transfer of funds from the United States Treasury and the issuance
                   or redemption of checks, warrants, or payment by other means by
                   the recipients.

            Title 40 CFR §30.22(b) states, in part:

                   Cash advances to a recipient organization shall be limited to the
                   minimum amounts needed and be timed to be in accordance with
                   the actual, immediate cash requirements of the recipient
                   organization in carrying out the purpose of the approved program

14-P-0131                                                                                   11
                   or project. The timing and amount of cash advances shall be as
                   close as is administratively feasible to the actual disbursements by
                   the recipient organization for direct program or project costs and
                   the proportionate share of any allowable indirect costs.

            Funds Held for Excessive Periods

            NASDARF drew funds in advance of expenditures and held the funds for
            excessive periods. We selected and reviewed supporting documentation for three
            of the 15 draws. As shown in table 3, NASDARF did not begin to expend funds
            for 21 to 125 days after the funds were drawn. In addition, the number of days
            between the draw and the last payment ranged from 110 to 230 days.

             Table 3: Number of days to expend drawdowns
                               First       Days to first       Last        Days to last
             Draw date       payment        payment         payment         payment
             7/21/2010      8/11/2010          21           3/8/2011          230
             7/21/2011      8/22/2011          32          11/08/2011         110
             7/12/2012      11/14/2012        125           1/22/2013         194
             Source: NASDARF drawdown requests and supporting documents.

            We noted a fourth draw made on April 22, 2013, for $249,000. In response to our
            request for supporting documentation for the funds drawn, NASDARF replied
            that the $249,000 represents expenditures that it expects to incur in April, May
            and June 2013. NASDARF provided the OIG with a listing of the expected
            expenditures for that 3-month period, which totaled $248,585. Since the
            information provided represents expected expenditures, we were unable to
            determine if the information refers to the number of days to expend the draw or if
            the draw was appropriate.

            Excessive Cash Balances Maintained

            NASDARF maintained excessive cash balances in its EPA bank account. We
            reviewed bank statements for the period beginning with the first EPA draw of
            funds in July 2010 through February 2013. We summarized deposits, checks and
            other debits, transfers in, and transfers out. We utilized the summary to compute
            an average cash balance for each month and fiscal year, and for the agreement
            period July 2010 through February 2013 (32 months). We found that NASDARF
            maintained large cash balances during the entire period. As shown in table 4, the
            average cash balance by year ranged from a low of $43,472 in FY 2011 to a high
            of $263,164 in FY 2012.




14-P-0131                                                                                   12
                   Table 4: Average cash balance
                                 Average cash            Lowest              Highest
                   Fiscal year      balance              balance             balance
                      2011          $119,900              $43,472            $233,651
                      2012          $185,748             $108,060            $263,164
                      2013          $129,642              $66,380            $175,409
                   Source: OIG calculations using NASDARF bank statements.

            Funds Used for Other Purposes

            NASDARF used EPA funds to cover expenditures under other non-EPA
            programs. Our review of NASDARF’s bank statements showed numerous
            transfers of funds from the EPA bank account to five other NASDARF bank
            accounts, including accounts for:

                  NASDA.
                  Agricultural Quality Inspection Services.
                  Midwestern Association of State Departments of Agriculture.
                  Northeastern Association of State Departments of Agriculture.
                  Western Association of State Departments of Agriculture.

            NASDARF stated it used the EPA funds to pay expenses incurred on other
            non-EPA programs. This occurred because of delays in receiving funds from
            other entities, delays due to the availability of funds by the bank, and problems
            with NASDARF’s bill-paying service. Table 5 summarizes transfers to and from
            the EPA bank account.

                   Table 5: Transfers to and from the EPA account
                                                       Transfers out            Transfers in
                   FY 2010 (April–June 2010)                      0                      0
                   FY 2011 (July 2010–June 2011)          $ 35,371                $126,753
                   FY 2012 (July 2011–June 2012)           244,951                  11,698
                   FY 2013 (July 2012–June 2013)            53,855                       0
                   Source: NASDARF monthly bank statements.

            Accounting Policy Manual Does Not Include Required Procedures

            NASDARF’s draft accounting policy manual dated June 30, 2011, Internal
            Control Memo, includes procedures for drawing federal funds. However, the
            procedures only indicate who requests the draws and states that the automated
            accounting software be used to summarize and analyze documentation. There
            were no written procedures to minimize the time between transfer of funds from
            the U.S. Treasury and payment by the recipient for program purposes, as required
            by the agreement and federal regulations.




14-P-0131                                                                                      13
            Title 40 CFR §30.21(b)(5) states, in part:

                   (b) Recipients’ financial management systems shall provide for the
                   following.

                       (5) Written procedures to minimize the time elapsing between
                       the transfer of funds to the recipient from the U.S. Treasury
                       and the issuance or redemption of checks, warrants or
                       payments by other means for program purposes by the
                       recipient.

Conclusion
            Based on the findings above, NASDARF’s financial management system did not
            meet certain federal requirements contained in the agreement. The recipient’s
            written policies and procedures do not include the necessary guidance to ensure
            compliance with 40 CFR Part 30. We have no assurance that costs are fair and
            reasonable when NASDARF calculates indirect costs and rates incorrectly, does
            not reconcile reported costs to its general ledger, withdraws excessive cash, and
            holds funds for a long period of time.

            To address the financial management issues identified, NASDARF should
            establish controls to ensure indirect costs are calculated and applied consistent
            with the requirements found in 2 CFR Part 230. NASDARF should also ensure
            that costs are recorded and supported by adequate source documentation as
            required by 40 CFR §30.21(b)(7), and ensure that drawdowns are consistent with
            the requirements contained in 40 CFR §30.21(b)(5) and §30.22(a) and (b).

            The EPA should also impose special conditions on all current and future awards
            of EPA funds as outlined in 40 CFR Part 30 and 40 CFR §30.14, Special Award
            Conditions, which states:

                   If an applicant or recipient: has a history of poor performance, is
                   not financially stable, has a management system that does not meet
                   the standards prescribed in Circular A-110; has not conformed to
                   the terms and conditions of a previous award; or is not otherwise
                   responsible, EPA may impose additional requirements as needed,
                   provided that such applicant or recipient is notified in writing as to:
                   the nature of the additional requirements, the reason why the
                   additional requirements are being imposed, the nature of the
                   corrective action needed, the time allowed for completing the
                   corrective actions, and the method for requesting reconsideration
                   of the additional requirements imposed. Any special conditions
                   shall be promptly removed once the conditions that prompted them
                   have been corrected.



14-P-0131                                                                                    14
            The special conditions should include: (a) payment on a reimbursement basis; and
            (b) EPA review and approval of reimbursement requests prior to payment.

Recommendations
            We recommend that the Director of the Office of Grants and Debarment:

               2.	 Require NASDARF to:

                       a. 	 Recalculate its indirect cost rate for FY 2011, excluding subgrant
                            and subcontract amounts in excess of $25,000; and submit to the
                            NBC for approval, or ask the NBC to amend, the indirect cost rate
                            agreements to include an equitable allocation base.
                       b.	 Claim indirect costs using the recalculated approved rates.

               3. 	 Require NASDARF to calculate its indirect cost rates for years beyond
                    FY 2011 by excluding subgrant and subcontract amounts in excess of
                    $25,000; or to be in accordance with any revised indirect cost rate
                    agreement.

               4.	 Require the following special conditions be included for all current and
                   future awards until the EPA determines that NASDARF has met all
                   applicable federal financial requirements:

                       a. 	 Payment on a reimbursement basis.
                       b. 	 Review and approval of reimbursement requests, including all
                            supporting documentation, prior to payment.

NASDARF Response

            NASDARF generally did not agree with the OIG findings and recommendations
            and provided the following comments.

            Did not calculate and apply indirect cost rates correctly: NASDARF responded
            that it is fully informed of 2 CFR Part 230 requirements and at no time was under
            the impression, nor did they execute any activities under the illusion, that indirect
            costs could be charged on subgrants and subcontracts in excess of $25,000.
            Further, NASDARF stated that the OIG’s charge relates specifically to Ms. Carol
            (Ramsay) Black’s misclassification as a “subcontractor,” when in fact, Ms. Black
            is a contracted employee/consultant under Ramsay Consulting, LLC. As a
            contracted employee, Ms. Black is not subject to the rule of a subcontract under 2
            CFR Part 230.

            NASDARF also responded that the OIG listed Ramsay Consulting LLC,
            Richard Herrett, Marla Stein Associates, and CropLife Latin America as
            subcontractors/subgrantors receiving payments in excess of $25,000. Ramsay

14-P-0131                                                                                      15
            Consulting, LLC and Mr. Herrett served as project managers for the grant and are
            therefore considered direct salary. Irrespective of the classification, Mr. Herrett
            was not paid under this current agreement. Marla Stein Associates received
            $21,143 under Cooperative Agreement 83456201 and the remaining invoices
            were charged under a prior agreement.

            NASDARF stated it is awaiting the EPA grants office’s opinion before making
            any decisions in regard to reapplying for indirect rates.

            NASDARF lacked controls to ensure the recoding of adjustment in the general
            ledger: NASDARF disagreed with the OIG’s finding that it lacked controls to
            ensure the recording of adjustments in the general ledger. NASDARF stated that
            the nature of any indirect rate application results in regular adjustments when
            rates change and new payments are made for subgrants. NASDARF’s goal is to
            obtain a correct cumulative total in the indirect allocation, not an unrealistic
            expectation of an unchanging allocation each month. Assessing these values at
            interim periods over the life of the grant only offers a snapshot at that specific
            time. NASDARF also provided a revised SF 425 as of October 31, 2013, and
            supporting general ledger through October 2013.

            NASDARF’s written procedures for drawdown did not incorporate cash-
            management requirements described in the administrative conditions of the
            agreement or under federal regulations: NASDARF responded it had changed
            both personnel and policy within the last year to ensure cash management
            practices are line with grant requirements. NASDARF’s updated policy now
            reads:

                   Drawdowns related to the EPA agreement are initiated by the
                   Director of Finance based on anticipated short-term expenses as
                   reported and documented by the Project Director. Drawdowns are
                   typically made after expenses are paid but may be made a week in
                   advance in anticipation of large vendor/subgrant disbursements.

            NASDARF also stated that it is aware of OIG’s position claiming funds are
            available within 3 business days; however, recent technical difficulties with the
            ASAP website make it extremely challenging for NASDARF management to
            operate with a 3-day window for distributing funds.

            NASDARF used EPA funds to cover expenditures under other non-EPA
            programs: NASDARF stated that the OIG’s assertion that it used EPA funds for
            expenditures for other non-EPA programs is incorrect. NASDASRF stated that it
            transfers funds from the NASDARF checking account to other NASDA-affiliated
            accounts only after NASDARF earned the funds through indirect allocations or
            reimbursement for direct expenses.




14-P-0131                                                                                       16
EPA Response

            The EPA agreed with the OIG’s recommendations and provided the following
            comments.

            Recommendation 2: The Office of Grants and Debarment (OGD) will provide
            NASDARF the opportunity to clarify its position and properly support its indirect
            rate and require NASDARF to amend the rate where appropriate. OGD will
            review NASDARF’s support and coordinate with the U.S. Department of the
            Interior’s NBC to review and amend the indirect cost rate agreement as needed,
            then require NASDARF to adjust claimed costs according to the revised
            agreement.

            Recommendation 3: Where necessary, OGD will require NASDARF to
            recalculate its indirect costs rates to be in compliance with 2 CFR Part 230 and
            coordinate with NBC to revise NASDARF’s rates. OGD will then require
            NASDARF to adjust claimed costs according to any revised indirect cost rate
            agreements.

            Recommendation 4: OGD will place NASDARF on reimbursement for its active
            assistance agreements. The agency will require NASDARF to provide supporting
            documents for costs incurred for the agency’s review prior to releasing funds for
            payment. NASDARF will remain on reimbursement status until it has demonstrated
            to the agency that its financial management of EPA agreements meets applicable
            federal requirements for drawing grant funds.

OIG Comments
            The OIG did not agree with NASDARF’s comments. The OIG’s responds to them
            as follows.

            Did Not Calculate and Apply Indirect Cost Rates Correctly: In its response,
            NASDARF states that Ms. Black’s position should be treated as direct salary. The
            OIG disagrees with this position. Under 2 CFR Part 230, Appendix B.8,
            compensation for personal services includes services provided by the
            organization’s employees. Since Ms. Black is not an employee, her position cannot
            be treated as a direct salary. There is no disagreement that Ms. Black is a
            contractor. However, based on further review of 2 CFR Part 230, the OIG believes
            that clarification is needed about the relationships discussed (i.e., grants-subgrants,
            contracts-subcontracts, and whether the requirement applies to the Ramsey
            contract). NASDARF’s relationship with Ramsey is not the typical grant-subgrant
            relationship; rather, it is a grant-contract relationship. We recommend that the EPA
            seek clarification on whether this type of relationship is subject to the $25,000
            requirement. This would also apply to the services provided by Mr. Herrett.



14-P-0131                                                                                      17
            NASDARF’s comment that the costs for Mr. Herrett and Ms. Stein were not
            claimed under this agreement is correct. However, the costs were included in the
            allocation base when computing the FY 2011 indirect cost rate. NASDARF used
            the FY 2011 rate to claim indirect costs under this agreement. Therefore, these
            costs should be limited to the $25,000.

            NASDARF Lacked Controls to Ensure the Recoding of Adjustment in the
            General Ledger: The OIG based its finding on the fact that the general ledger did
            not support the outlays reported on the interim FFR. The OIG acknowledges the
            adjustments of indirect costs as NASDARF discussed. However, outlays reported
            on the FFR should be adequately supported as required by 40 CFR §30.21(b)(7).
            Although NASDARF provided a revised SF 425 and general ledger, it did not
            provide any additional documentation to support the two adjustments reported
            under the interim FFR. As a result, the OIG continues to question the costs as
            unsupported.

            NASDARF’s Written Procedures for Drawdown Did Not Incorporate Cash-
            Management Requirements Described in the Administrative Conditions of the
            Agreement or Under Federal Regulations: The OIG acknowledges that NASDARF
            revised its procedures. However, the procedures do not indicate that drawdowns
            should be made as close as administratively feasible to the actual disbursements
            and be timed in accordance with the actual, immediate cash requirements. The OIG
            does not consider this acceptable, and continues to maintain that NASDARF can
            get funds from the EPA within 3 days or less.

            NASDARF Used EPA Funds to Cover Expenditures Under Other Non-EPA
            Programs: The OIG disagrees with NASDARF that it did not use EPA funds for
            expenditures for non-EPA programs. The OIG’s cash flow analysis, conducted
            using NASDARF’s bank statements, showed that NASDARF moved funds
            between EPA’s programs and others. Most of the transfers out were to the NASDA
            account, which, as discussed in NASDARF’s response above, could be for
            reimbursement for indirect expenses. However, there were significant deposits to
            and from the EPA account from other agencies. There were also smaller transfers
            out from the EPA account to other associations within the state departments of
            agriculture. Federal Regulations at Title 40 CFR 30.21(b)(3) require that recipients’
            financial management systems shall assure that funds are used solely for authorized
            purposes.

            The OIG agrees with EPA’s intended corrective actions for recommendations 2, 3,
            and 4. However, because the EPA did not provide specific planned completion
            dates for the corrective actions, the OIG considers the status of the
            recommendations unresolved.




14-P-0131                                                                                    18
                                  Chapter 5

   Procurements Did Not Meet Federal Requirements 

             or Agreement Conditions 

            NASDARF’s procurement practices for subcontracts and subgrants did not
            comply with federal requirements or agreement conditions. In particular,
            NASDARF did not:

               	 Provide documentation to support the sole-source procurement process
                  used for its project management subcontract, or conduct a cost or price
                  analysis as required by 40 CFR Part 30 and NASDARF’s own
                  procurement policy.
                Comply with agreement administrative condition 15.a.(4) for subgrants
                  awarded to the University of Florida and CropLife Latin America.
                Include provisions required by 40 CFR Part 30 in its written procurement
                  policy.

            These conditions occurred because of NASDARF’s lack of knowledge or a lack
            of understanding about agreement conditions and federal requirements.
            Additionally, NASDARF’s written policies and procedures provided inadequate
            guidance for subcontract and subgrant awards. As shown in chapter 3, we
            questioned $295,976 that NASDARF incurred and reported for three awards.
            Table 6 details the subcontract and subgrant awards questioned.

                     Table 6: Subcontract and subgrant costs questioned
                                                               Reported and
                     Cost element                               questioned
                     Project management subcontract                $151,484
                     University of Florida subgrant                  44,492
                     CropLife Latin America subgrant                100,000
                          Total                                    $295,976
                     Source: NASDARF’s reported costs.


Sole-Source Procurement Not Justified; Cost or Price Analysis
Not Conducted
            When awarding a subcontract for project management, NASDARF did not
            promote open and free competition, perform a cost or price analysis, document
            the basis for the award cost or price, or properly document its procurement
            practices. NASDARF signed the subcontract on February 26, 2009. The
            subcontract provided project management services at an hourly rate of $90.
            The hourly rate included salary of $74.50 and indirect costs of $15.50.


14-P-0131                                                                                   19
            As of January 2013, NASDARF had incurred and reported $151,484 for this
            subcontract.

            Requirements listed under 40 CFR §30.43 state that all procurement transactions
            be conducted in a manner to provide, to the maximum extent practical, open and
            free competition. In addition, 40 CFR §30.45 requires that some form of cost or
            price analysis be made and documented in the procurement files in connection
            with every procurement action. According to 40 CFR §30.46, procurement
            records and files for purchases in excess of the small purchase threshold must
            include at least the basis for contractor selection, justification for lack of
            competition when competitive bids or offers are not obtained, and the basis for
            award cost or price.

            NASDARF’s own written procurement policy for purchases exceeding $25,000
            requires that a cost analysis be conducted and documented in conjunction with
            every purchase. Justification for the lack of competition should also be
            documented if competitive bids or offers are not obtained.

            NASDARF initially informed us that it did not solicit proposals for project
            managers from other subcontractors. A subcontractor was selected based on
            NASDARF’s experiences and NASDARF’s discussion with other knowledgeable
            personnel, including EPA staff. We asked NASDARF to provide justification for
            the lack of competition, the use of a sole source, the basis for contractor selection,
            the basis for the award price, and its cost or price analysis for the subcontract.
            NASDARF was unable to provide any of the required documents or provide
            evidence that it had performed any of the required steps. NASDARF stated that
            most of their procurement actions for this subcontract were verbal and were not
            documented.

Subgrant Procurements Did Not Comply With Administrative
Condition
            NASDARF did not comply with administrative condition 15.a.(4) in the award of
            subgrants to the University of Florida and to CropLife Latin America.
            Administrative condition 15.a.(4) required NASDARF to determine whether
            proposed subgrant costs are reasonable. NASDARF’s analysis of proposed costs
            for these two awards was insufficient and lacked numerous support items that
            should be included when determining the reasonableness of costs.

            University of Florida Agreement

            NASDARF made an $88,984 award to the University of Florida on May 25, 2010.
            The purpose of the award was to identify the potential risks of pesticide drift from
            agricultural operations, develop good-neighbor practices for minimizing risks, and
            disseminate educational material on drift and good-neighbor practices.


14-P-0131                                                                                       20
            NASDARF agreed to pay $44,492 upon the execution of the award, with the
            remaining 50 percent due upon receipt of a first-year interim report. As of
            January 2013, NASDARF had incurred and reported $44,492 for the subgrant
            under the previous EPA Agreement No. 83235401, and the remaining amount of
            $44,492 is reported under EPA Agreement No. 83456201.

            We asked NASDARF to provide documentation of its review of the
            reasonableness of proposed costs for the award. In response, NASDARF stated
            that the costs were reasonable. NASDARF did not submit any comparisons of
            price quotes, market prices or other benchmarks to support its determination of
            reasonableness. In addition, NASDARF did not submit any documentation
            indicating that it had evaluated each element of cost.

            CropLife Latin America Agreement

            NASDARF made an award to CropLife Latin America for a project in Costa Rica.
            Dated January 31, 2011, the agreement included total project costs of $204,307
            over a 3-year period. NASDARF’s share of the total was $100,000. As of
            January 2013, NASDARF had incurred and reported the full $100,000.

            We asked NASDARF for documentation of its review of the reasonableness of
            costs for the award. In response, NASDARF provided a document that described
            its review of the proposed amount. The analysis did not demonstrate that the
            proposed costs were reasonable. NASDARF stated that the cost of the project
            compared favorably to the cost of other EPA projects. NASDARF stated that the
            cost of the other EPA projects was $30,000. However, NASDARF did not name
            the other EPA projects, provide any supporting documents or other market prices,
            or provide benchmarks to support the reasonableness of the costs. NASDARF
            also stated that the project would be substantially more expensive if another entity
            conducted the project, but NASDARF did not provide any supporting
            documentation for this statement.

Written Procurement Policy Does Not Include Required Procedures
            We reviewed NASDARF’s written procurement policy to determine whether the
            policy included provisions required by 40 CFR Part 30. The policy contained
            several required procurement practices but lacked other requirements.
            NASDARF’s policy was implemented in FY 2010 and applies to purchases
            exceeding $25,000. The policy:

                  Prohibits conflicts of interest.
                  Includes provisions for conducting and documenting a cost analysis in
                   conjunction with every procurement.
                  Requires justification for lack of competition if competitive bids or offers
                   are not obtained.


14-P-0131                                                                                     21
                  Requires procurements to be conducted to maximize opportunities,
                   increase quality and reduce the cost of the purchase.
                  Requires justification for the award of a contract to an entity other than the
                   low bidder.

            However, the NASDARF policy did not include the following requirements from
            40 CFR Part 30, which requires solicitations to include:

                 A clear statement on all requirements that the bidder or offeror should
                  fulfill for the bid or offer to be evaluated (§30.43).
                A clear and accurate description of the technical requirements
                  (§30.44(a)(3)(i)).
                Requirements that the bidder/offeror must fulfill all other factors to be
                  used in evaluating bids or proposals (§30.44(a)(3)(ii)).
               	 Contracts be awarded only to responsible contractors who possess the
                  potential ability to perform successfully under the terms and conditions of
                  the proposed procurement (§30.44(d)).
               	 Procurement records and files for purchases in excess of the small
                  purchase threshold also include the basis for contractor selection (§30.46).

Conclusion
            NASDARF’s procurements did not follow its own procurement policy, comply
            with federal requirements or meet all conditions of the agreement. When
            recipients do not justify sole-source procurements or complete the required cost or
            price analysis, the OIG has no assurance that costs are fair and reasonable. Since
            NASDARF did not document its decisions at the time of the procurement, it did
            not comply with federal requirements. Consideration of NASDARF’s after-the-
            fact explanations and documentation is at the discretion of EPA management and
            would require a formal deviation from agency policy in accordance with
            40 CFR §30.4, Deviations. This regulation states:

                   The Office of Management and Budget (OMB) may grant
                   exceptions for classes of grants or recipients subject to the
                   requirements of Circular A–110 when exceptions are not
                   prohibited by statute. However, in the interest of maximum
                   uniformity, exceptions from the requirements of Circular A–110
                   shall be permitted only in unusual circumstances. EPA may apply
                   more restrictive requirements to a class of recipients when
                   approved by OMB. EPA may apply less restrictive requirements
                   when awarding small awards, except for those requirements which
                   are statutory. Exceptions on a case-by-case basis may also be made
                   by EPA.




14-P-0131                                                                                     22
Recommendation
            We recommend that the Director of the Office of Grants and Debarment:

               5.	 Require NASDARF to establish controls for future awards in order
                   to ensure:

                       a.	 Documentation is maintained in procurement files to justify
                           sole-source procurements and to ensure compliance with
                           40 CFR§30.46.
                       b.	 Compliance with 40 CFR §30.45 by conducting a cost or price
                           analysis to determine reasonableness of costs.
                       c.	 Compliance with administrative conditions of the award by
                           determining and documenting the reasonableness of subgrant costs.

NASDARF Response

            NASDARF generally did not agree with the OIG findings and recommendations
            and provided the following comments.

            Sole-Source Procurement Not Justified, Cost or Price Analysis Not Conducted:
            NASDARF responded that, as provided in previous communications with the
            OIG, both NASDARF and the EPA engaged several individuals for consideration
            to replace Mr. Richard Herrett as the NASDARF Project Manager. However, due
            to the unique skill-set and expertise required to adequately fill the NASDARF
            Project Manager position, only a finite number of individuals met the
            qualifications needed for consideration. One of the candidates, Mr. Roger
            Flashinski, under consideration for the Project Manager position, provided a
            statement confirming that he was not able to accept the position due to timing
            considerations and his position with another university did not allow for the same
            accommodations as Ms. Black. Additionally, NASDARF addressed the
            reasonableness of pay and provided comparison data to current positions similar
            in scope and demands.

            Cost or Price Analysis Not Conducted: NASDARF did not agree with the OIG
            findings and recommendations and restated its assessment of “reasonableness of
            costs” for the University of Florida project. NASDARF stated that the rates in the
            proposal are reasonable and fall within typical rates for editing. Further, the
            pesticide-related subject matter is technical and requires a skilled editor.
            NADARF also included analysis of the various cost elements.

            Similar to the University of Florida subgrant, NASDARF stated that it provided
            sufficient documentation to demonstrate “reasonableness of costs” for the
            CropLife Latin America project. NASDARF also included further discussion of
            the various cost elements and comparisons to other state pesticide safety
            education programs.

14-P-0131                                                                                    23
EPA Response
            The EPA agreed with the OIG’s recommendations and stated that OGD will
            require NASDARF to comply with the requirements of 40 CFR Part 30 and
            administrative conditions with respect to documenting the justification of sole-
            source procurements and performing an adequate cost or price analyses for
            procurements and subawards to determine the reasonableness of cost.

OIG Comments
            The OIG acknowledges NASDARF’s discussion regarding the cost-price analysis
            and reasonableness of costs associated with the Ramsey contract and the subgrants.
            However, since NASDARF did not document the analysis at the time of the
            procurement, it did not comply with federal requirements. Consideration of
            NASDARF’s after-the-fact explanations and documentation is at the discretion of
            EPA management and would require a formal deviation from agency policy in
            accordance with 40 CFR §30.4, Deviations.

            The OIG agrees with EPA’s intended corrective actions for recommendation 5.
            However, because the EPA did not provide specific planned completion dates for
            the corrective actions, the OIG considers the status of the recommendation
            unresolved.




14-P-0131                                                                                      24
                                  Chapter 6

                        Other Unresolved Issue
            During our review of NASDA’s single audit report for FY 2012, the OIG learned
            of an unresolved issue pertaining to a prior EPA agreement. Specifically,
            NASDARF reported and drew funds of $118,324 for potentially unallowable
            costs under EPA Agreement No. 83235401. Per the single audit report, the costs
            were recorded as a refundable advance and represent funds received as of
            year-end but not yet earned. NASDARF initially considered the costs (incurred in
            2006 and 2007) as unallowable and did not report them. NASDARF later reported
            the costs to the EPA as part of the closeout of the agreement in 2011. Although
            the EPA closed the agreement, NASDARF stated that the agency never made a
            determination on the allowability of the costs. NASDARF will recognize these
            funds as revenue once accepted by the EPA.

            We followed up with EPA personnel in the Office of Pesticide Programs and
            OGD, and found that staff were unaware of the issue. Personnel in both offices
            stated they had no knowledge of the potentially unallowable costs. However, staff
            said they would discuss the issue with personnel associated with the previous
            agreement and obtain more information. As a result, we questioned the $118,324
            pending review and approval by EPA.

            Although the agreement is closed, the EPA can recover funds if the funds are
            determined to be unallowable. Title 40 CFR §30.72(a) states the closeout of an
            award does not affect, in part, the following:

                  The right of EPA to disallow costs and recover funds on the basis of a
                   later audit or other review.
                  The obligation of the recipient to return any funds due as a result of later
                   refunds, corrections or other transactions.
                  Audit requirements (§30.26).

            In addition, 40 CFR §30.73(a) states:

                   Any funds paid to a recipient in excess of the amount to which the
                   recipient is finally determined to be entitled under the terms and
                   conditions of the award constitute a debt to the Federal
                   Government. If not paid within a reasonable period after the
                   demand for payment, EPA may reduce the debt by paragraph (a)
                   (1), (2) or (3) of this section.

                          (1) Making an administrative offset against other requests
                              for reimbursements.

14-P-0131                                                                                         25
                          (2) Withholding advance payments otherwise due to the
                              recipient.
                          (3) Taking other action permitted by statute.

Recommendation
            We recommend that the Director of the Office of Grants and Debarment:

               6.	 Determine the allowability of the $118,324 in costs incurred under prior
                   EPA Agreement No. 83235401 and recover any costs determined to be
                   unallowable.

NASDARF Response

            NASDARF responded that the EPA had officially closed the grant and released
            the funds. NASDARF also provided a copy of the close-out letter.

EPA Response

            The EPA responded to the recommendation stating that OGD and the Office of
            Chemical Safety and Pollution Prevention will require NASDARF to submit
            documentation for the costs in question incurred in 2007 under Agreement No.
            83235401 to determine whether they are allowable under the agreement. EPA also
            responded it will review the documentation and take necessary corrective action,
            including the recovery of costs as appropriate if they are determined to be
            unallowable.

OIG Comments
            The OIG acknowledges that the EPA closed the grant and released the funds.
            However, based on NASDARF’s comments to the OIG and the single audit report
            for FY 2012, allowability of the costs remains at issue.

            The OIG agrees with EPA’s intended corrective actions for recommendation 6.
            However, because the EPA did not provide specific planned completion dates for
            the corrective actions, the OIG considers the status of the recommendation
            unresolved.




14-P-0131                                                                                     26
                                    Status of Recommendations and
                                      Potential Monetary Benefits
                                                                                                                          POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1      Action Official         Date      Amount      Amount

     1        7     Disallow and recover $571,626 of questioned              U         Director, Office of                 $572
                    costs. If NASDARF provides documentation that                    Grants and Debarment
                    meets appropriate federal requirements or
                    demonstrates the fairness and reasonableness of
                    the subcontract and subgrant costs, the amount to
                    be recovered may be adjusted accordingly.

     2        15    Require NASDARF to:                                      U         Director, Office of
                      a. Recalculate its indirect cost rate for FY 2011,             Grants and Debarment
                         excluding subgrant and subcontract amounts
                         in excess of $25,000; and submit to the NBC
                         for approval, or ask the NBC to amend, the
                         indirect cost rate agreements to include an
                         equitable allocation base.
                      b. Claim indirect costs using the recalculated
                         approved rates

     3        15    Require NASDARF to calculate its indirect cost           U         Director, Office of
                    rates for years beyond FY 2011 by excluding                      Grants and Debarment
                    subgrant and subcontract amounts in excess of
                    $25,000; or to be in accordance with any revised
                    indirect cost rate agreement.

     4        15    Require the following special conditions be              U         Director, Office of
                    included for all current and future awards until the             Grants and Debarment
                    EPA determines that NASDARF has met all
                    applicable federal financial requirements:
                      a. Payment on a reimbursement basis.
                      b. Review and approval of reimbursement
                         requests, including all supporting
                         documentation, prior to payment.

     5        23    Require NASDARF to establish controls for future         U         Director, Office of
                    awards in order to ensure:                                       Grants and Debarment
                      a. Documentation is maintained in procurement
                         files to justify sole-source procurements and
                         to ensure compliance with 40 CFR§30.46.
                      b. Compliance with 40 CFR §30.45 by
                         conducting a cost or price analysis to
                         determine reasonableness of costs.
                      c. Compliance with administrative conditions of
                         the award by determining and documenting
                         the reasonableness of subgrant costs.

     6        26    Determine the allowability of the $118,324 in costs      U         Director, Office of                 $118
                    incurred under prior EPA Agreement No. 83235401                  Grants and Debarment
                    and recover any costs determined to be
                    unallowable.



1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress



         14-P-0131                                                                                                                               27
                                                                                          Appendix A

              NASDARF’s Comments on Draft Report
                     and OIG Responses
                                             National Association of State Departments of Agriculture 
                                                                                    4350 North Fairfax Drive 
                                                                                                   Suite 910 
                                                                                        Arlington, VA 22203 
                                                                      Tel: 202‐296‐9680 | Fax: 703‐880‐0509 
                                                                                             www.nasda.org 




                                       December 19, 2013

Ms. Angela Bennett
US EPA Region 4
Office of Inspector General
61 Forsyth Street, S.W.
Mailcode: 12T26
Atlanta, GA 30303-8960

       RE: Office of Inspector General’s Draft Report on Examination of NASDARF’s
       Cooperative Agreement No. 83456201

Dear Ms. Bennett:

Thank you for the opportunity to provide comments and additional information on the Office of
Inspector General’s (OIG) draft examination on the National Association of State Departments of
Agriculture Research Foundation’s (NASDARF) cooperative agreement with the Environmental
Protection Agency (No. 83456201).

In an effort to provide a complete and accurate response to OIG’s inquires under Project No. OA-
FY13-0140, NASDARF has personally met with OIG management on several occasions, fully
complied with all of OIG’s requests for information and supporting documentation over several
months, and met with EPA’s Office of Pesticide Programs (OPP) representatives to discuss and
provide informed responses to OIG’s draft examination. In addition to the specific responses below,
we are providing the attached documentation for your review (Attachments A-U).

We value OIG’s role and mission, and we appreciate any opportunity to increase NASDARF
efficiencies in our cooperative agreement with EPA. Please see our responses to OIG findings
below.

OIG Charge: Financial Management Systems did not Meet Certain Federal Requirements

In Chapter 4 of the OIG draft examination, OIG made the following charges:
  14-P-0131                                                                                              28
       NASDARF’s financial management system did not meet certain federal regulations
       and agreement conditions. Specifically, NASDARF:
           Did not calculate and apply indirect cost rates correctly.
           Reported outlays for indirect costs in excess of recorded expenses in the
              general ledger. 

           Drew down funds that exceeded cash needs.


       These conditions occurred because NASDARF did not have controls in place to
       ensure compliance with federal regulations and agreement conditions. In calculating
       indirect cost rates, NASDARF was not aware initially of 2 CFR Part 230
       requirements to exclude subgrants and subcontracts in excess of $25,000. NASDARF
       later interpreted the requirements erroneously and only excluded amounts for
       subgrants, but not subcontracts. For the reported outlays, NASDARF lacked controls
       to ensure the recording of adjustments in the general ledger. Lastly, NASDARF’s
       written procedures for drawdowns did not incorporate cash-management
       requirements as described in the administrative conditions of the agreement or under
       federal regulations.

NASDARF Response to Chapter 4 Charge: Did not calculate and apply indirect cost
rates correctly:

NASDARF is fully informed of 2 CFR Part 230 requirements to exclude subgrants and subcontracts
in excess of $25,000, and at no time was NASDARF under the impression, nor did NASDARF
execute any activities under the illusion, that indirect costs could be charged on subgrants and
subcontracts in excess of $25,000.

OIG’s charge relates specifically to Ms. Carol (Ramsay) Black’s misclassification as a
“subcontractor,” when in fact, Ms. Black is a contracted employee/consultant under Ramsay
Consulting, LLC. NASDARF maintains a long standing relationship with Ms. Black in her capacity
as a contract employee, and Ms. Black’s correct classification as a contracted employee is not
subject to the rule of a subcontract under 2 CFR Part 230.

As provided in previous communications with OIG, both NASDARF and EPA engaged several
individuals for consideration to replace Mr. Richard Herrett as the NASDARF Project Manager.
However, due to the unique skill-set and expertise required to adequately fill the NASDARF Project
Manager position, only a finite number of individuals met the qualifications needed for
consideration. Subsequently, both EPA and NASDARF identified Ms. Black as the most qualified
employee candidate during the recruitment process to replace Mr. Herrett, who had indicated his
desire to retire. However, in order to hire Ms. Black and allow her to retain her faculty position at
Washington State University, it was necessary for Ms. Black to serve in a “consultant/employment”
capacity. To this end, NASDARF made a budgetary request in March 2011 to move $520,000 from
the Salary budget category into the Contractual category.

Since Ms. Black serves as an agent for NASDARF and the project manager for cooperative
agreement No. 83456201, her position should be treated as direct salary. NASDARF recognizes
Ms. Black’s hourly expenses should be budgeted as salary per the original budget. NASDARF will
request that the budget is returned to its original classifications.

   14-P-0131                                                                                      29
Ms. Black is perceived by all project partners, stakeholders, and EPA as being an agent of
NASDARF. Her expertise is largely responsible for the high level of quality work and numerous
deliverables this Cooperative Agreement has produced, and EPA, NASDA, and the stakeholder
community hold her in high regard. OIG and NASDARF may disagree on Ms. Black’s position and
the Ramsay Consulting, LLC contract. Given this potential disagreement, NASDARF maintains the
indirect cost rule was applied consistently across each and every other subgrant and subcontract,
including those in question with University of Florida, CropLife Latin America, and Texas A&M
University.

In addition, OIG listed Ramsay Consulting LLC, Richard Herrett, Marla Stein Associates, and
CropLife Latin America as subcontractors/subgrantors receiving payments in excess of $25,000.
Ramsay Consulting, LLC and Mr. Herrett served as project managers for the grant and are therefore
considered direct salary. Irrespective of the classification, Mr. Herrett was not paid under this
current agreement. Marla Stein Associates received $21,143 under Cooperative Agreement X8-
83456201; these expenses are as follows: printing Handler Verification cards (second payment of
$11,950 from June 2010), a thumb drive ($163 in Sept 2012) and publication design for a PPE
document ($9,030 in May 2013). The remaining invoices were charged under a prior agreement
(Attachments A-H).

As OIG noted in its discussion of adjustments to the indirect allocation, indirect costs were not
ultimately charged on the $10,093 over $25,000 paid to CropLife Latin America.

NASDARF applies for their indirect rate annually. The rate is approved by the National Business
Center (NBC). This results in a revised Final indirect rate and a new Provisional indirect rate. The
Final indirect rate is received long after the close of the NASDARF fiscal year and almost always
requires adjustment to prior years (Attachment I).

NASDARF is awaiting the EPA grants office’s opinion before making any decisions in regards to
reapplying for indirect rates. Indirect rates were calculated with guidance from EPA and the NBC,
which considered all programs currently undertaken by NASDA and NASDARF. This arduous
process takes resources away from program goals and would more than likely result in no material
adjustments.

 OIG Response 1: In its response, NASDARF states that Ms. Black’s position should be
 treated as direct salary. The OIG disagrees with this position. Under 2 CFR 230,
 Appendix B.8, compensation for personal services includes services provided by the
 organization’s employees. Since Ms. Black is not an employee, her position cannot be
 treated as a direct salary. There is no disagreement that Ms. Black is a contractor. However,
 based on further review of 2 CFR Part 230, the OIG believes that clarification is needed
 about the relationships discussed (i.e., grants-subgrants, contracts-subcontracts, and whether
 the requirement applies to the Ramsey contract). NASDARF’s relationship with Ramsey is
 not the typical grant-subgrant relationship; rather, it is a grant-contract relationship. We
 recommend that the EPA seek clarification on whether this type of relationship is subject to
 the $25,000 requirement. This would also apply to Mr. Herrett.



  14-P-0131                                                                                       30
NASDARF Response to Chapter 4 Charge: NASDARF lacked controls to ensure the
recording of adjustments in the general ledger:

NASDARF disagrees with OIG’s statement that NASDARF lacked “controls to ensure the
recording of adjustments in the general ledger.” The nature of any indirect rate application results
in regular adjustments when rates change and new payments are made for subgrants. NASDARF’s
goal is to obtain a correct cumulative total in the indirect allocation, not an unrealistic expectation of
an unchanging allocation each month. Assessing these values at interim periods over the life of the
grant only offers a snapshot at that specific time. Attachment J includes the general ledger through
October 2013 and Attachment K is a revised SF425 as of October 31, 2013, which provide greater
context of the grant during a dynamic, interim period. Attachment L reflects the indirect rates over
the life of the grant.

 OIG Response 2: The OIG based its finding on the fact that the general ledger did not
 support the outlays reported on the interim FFR. The OIG acknowledges the adjustments of
 indirect costs as NASDARF discussed; however, outlays reported on the FFR should be
 adequately supported as required by 40 CFR §30.21(b)(7). NASDARF did not provide any
 additional documentation to support the two adjustments reported under the interim FFR.
 As a result, the OIG continues to question the costs as unsupported.


NASDARF Response to Chapter 4 Charge: NASDARF’s written procedures for
drawdowns did not incorporate cash-management requirements described in the
administrative conditions of the agreement or under federal regulations:

NASDARF has changed both personnel and policy within the last year to insure cash management
practices are in line with grant requirements. According to the revised SF425, as of October 31,
2013, EPA owed NASDARF $125,319.20 in direct expenses and indirect allocations (Attachment
M). This money was drawn down in November per NASDARF’s updated policy, which now reads:

       “Drawdowns related to the EPA agreement are initiated by the Director of Finance based on
       anticipated short-term expenses as reported and documented by the Project Director.
       Drawdowns are typically made after expenses are paid but may be made a week in advance
       in anticipation of large vendor/subgrant disbursements.”

NASDARF is aware of OIG’s position claiming funds are available within 3 business days;
however, recent technical difficulties with the ASAP website make it extremely challenging for
NASDARF management to operate with a 3-day window for distributing funds.


 OIG Response 3: The OIG acknowledges that NASDARF revised its procedures; however,
 the procedures do not indicate that drawdowns should be made as close as administratively
 feasible to the actual disbursements and be timed in accordance with the actual, immediate
 cash requirements. The OIG does not consider this acceptable, and continues to maintain that
 NASDARF can get funds from the EPA within 3 days or less.




   14-P-0131                                                                                           31
NASDARF Response to Chapter 4 Charge: NASDARF used EPA funds to cover
expenditures under other non-EPA programs:

OIG’s assertion that NASDARF used EPA funds for expenditures for other non-EPA programs is
incorrect. Funds were transferred from the NASDARF checking account to other NASDA
affiliated accounts only after NASDARF earned the funds through indirect allocations or
reimbursement for direct expenses. NASDARF is unclear how OIG’s assumption was generated,
and NASDARF is highly concerned OIG did not adequately develop an understanding of
NASDARF’s revenue recognition and cash management procedures when reaching this conclusion.
NASDARF welcomes additional information and explanation on how OIG developed this finding.


 OIG Response 4: The OIG disagrees with NASDARF that it did not use EPA funds for
 expenditures for non-EPA programs. The OIG’s cash flow analysis, conducted using
 NASDARF’s bank statements, showed that NASDARF moved funds between the EPA’s
 programs and others. Most of the transfers out were to the NASDA account, which, as
 discussed in the response above, could be for reimbursement for indirect expenses.
 However, there were significant deposits to and from the EPA account from other agencies.
 There were also smaller transfers out from the EPA account to other associations within the
 state departments of agriculture. Title 40 CFR 30.21(b)(3) requires that recipients’ financial
 management systems shall assure that funds are used solely for authorized purposes.


OIG Charge: Procurements did not meet Federal Requirements or Agreement Conditions

In Chapter 5 of the OIG draft examination, OIG made the following charges:

       NASDARF’s procurement practices for subcontracts and subgrants did not comply
       with federal requirements or agreement conditions. In particular, NASDARF did
       not:

          	 Provide documentation to support the sole-source procurement process used
             for its project management subcontract, or conduct a cost or price analysis
             as required by 40 CFR Part 30 and NASDARF’s own procurement policy.
           Comply with agreement administrative condition no. 15.a.(4) for subgrants
             awarded to the University of Florida and CropLife Latin America.
           Include provisions required by 40 CFR Part 30 in its written procurement
             policy.

       These conditions occurred because of NASDARF’s lack of knowledge or a lack of
       understanding about agreement conditions and federal requirements. Additionally,
       NASDARF’s written policies and procedures provided inadequate guidance for
       subcontract and subgrant awards. As shown in chapter 3, we questioned $295,976
       that NASDARF incurred and reported for three awards. – not explicitly addressed.




  14-P-0131                                                                                       32
NASDARF Response to Chapter 5 Charge: Sole-Source Procurement Not Justified;
Cost or Price Analysis Not Conducted:

As stated above, Ms. Black is a contracted employee/consultant under Ramsay Consulting, LLC.
NASDARF maintains a long standing relationship with Ms. Black in her capacity as a contract
employee, and Ms. Black’s correct classification as a contracted employee is not subject to the rule
of a subcontract. This was an employee hiring decision for which both NASDARF and EPA Office
of Pesticide Programs (“OPP”) participated.

As provided in previous communications with OIG, both NASDARF and EPA engaged several
individuals for consideration to replace Mr. Richard Herrett as the NASDARF Project Manager.
However, due to the unique skill-set and expertise required to adequately fill the NASDARF Project
Manager position, only a finite number of individuals met the qualifications needed for
consideration. One of the candidates, Mr. Roger Flashinski, under consideration for the Project
Manager position provided a statement confirming he was not able to accept the position due to
timing considerations and his position with another university did not allow for the same
accommodations as Ms. Black (Attachment N).

In response to the issue of reasonableness of pay, the project manager position requires a skill set
similar to those of a government employee program manager or branch chief. NASDARF's project
manager is responsible for overseeing multiple programs areas, including: applicator certification,
worker protection handler education and support for health care providers. A qualified project
manager must have demonstrated extensive national leadership and be highly respected in pesticide
applicator education and regulation arena. The manager must be well-established within the wide
network of national stakeholders and be well-respected within the EPA Office of Pesticide
Programs. They must have demonstrated success in coalition leadership, conference management,
project development & coordination, and manage a highly respected pesticide safety
education/regulatory program.

NASDARF based Ms. Black’s hourly compensation on similar positions located in the Washington,
DC and Seattle, WA areas. Furthermore, NASDARF discussed Ms. Black’s pay level with EPA
OPP, which subsequently agreed on appropriateness of Ms. Black’s pay level. Current positions
similar in scope and demands include:

   	 National Program Leader for IR-4 and PMP at USDA National Institute for Food and
      Agriculture (NIFA) (Monte P. Johnson). Mr. Johnson provides national leadership for state
      and federal activities aimed at developing a greater understanding of the toxicological
      consequences of human exposure to pesticides and the effects of pesticide residues in foods
      and the environment. Prior to assuming this position with USDA, Mr. Johnson was the
      University of Kentucky pesticide education specialist. Current rank: GS-15 and salary:
      $148,510 (or $71.40/hour), not including benefits.
   	 USDA Plant Systems Protection Program Leader (Mary Purcell-Miramontes). Ms. Purcell-
      Miramontes leads and directs Agriculture & Food Research Initiative (AFRI) competitive
      grant programs on Insects and Nematodes in Plant Systems and co-chairs the Colony
      Collapse Disorder Steering Committee and Program Leader for the Pesticide Safety
      Education Program. Current rank: GS-15 and salary: $140,259 (or $67.43/hour), not
      including benefits.

  14-P-0131                                                                                      33
   	 Branch Chief Worker Safety Division for US Environmental Protection Agency (Kevin
      Keaney). Mr. Keaney works for OPP’s Field and External Affairs Division and manages
      regional and state coordination and assistance for applicator certification, worker protection,
      health incidents, and health care providers, including communication and outreach activities.
      Current rank: GS-15 and salary: $155,500 (or $74.52/hour), not including benefits.
   	 USDA NIFA Office of the Director, Program and Analysis Officer (William J. Hoffman).
      Mr. Hoffman participates in programming, policy development and interpretation,
      development and updating of NIFA’s guidelines, COOP plans, and resources. Current rank:
      GS-14 and salary: $126,251 (or $60.70/hour), not including benefits.

Cost basis for GS Pay Scale for positions in Seattle, WA and Washington, DC:
    GS 14 -- $65.53 per hour + 37% benefit rate = $89.78
    GS 15 – 74.51 per hour + 22.78% benefit rate = $91.48 (actual benefit rate for EPA GS15 is
       22.78%)

Ms. Black’s contract with NASDA states the $90.00/hour includes a base pay rate of $74.50 per
hour and $15.50 per hour overhead expenses for the contractor. The base rate would actually be
higher had Ms. Black been a salaried employee for NASDARF. The employee benefits rate at
NASDA for retirement, health, and dental is 24.5%. The benefit rate for federal employees ranges
from 23-37%. Ms. Black’s rate for benefits is currently 20%.

 OIG Response 5: The OIG acknowledges the NASDARF’s discussion regarding the selection
 of Ms. Ramsey. However, since NASDARF did not document its decisions at the time of the
 procurement, it did not comply with federal requirements. Consideration of NASDARF’s after-
 the-fact explanations and documentation is at the discretion of EPA management and would
 require a formal deviation from agency policy in accordance with 40 CFR §30.4, Deviations.


NASDARF Response to Chapter 5 Charge: Cost or Price Analysis Not Conducted:

NASDARF restates its assessment of “reasonableness of costs” for the UFL project. We disagree
with OIG finding our assessment did not measure a prudent person’s assessment. The rates in the
proposal are reasonable and fall within typical rates for editing as referenced by the Editorial
Freelancers’ Association (http://www.the-efa.org/res/rates.php), ProComm (Attachment O) and
HOW Design (http://www.howdesign.com/design-business/pricing/hourly-rates). The pesticide-
related subject matter (air sampling, data analysis) is technical and requires a skilled editor.
Presentation development includes content development, graphic design and multimedia animation
and is priced similarly. Narration includes the voice over narration, plus insertion and
synchronization with the base media (PowerPoint or video). Using our collective experience on the
amount of time to produce publications and current market prices, the below description is accurate:

Cost Analysis:

	 OTHER $13,000 – publication and postage way under budget:
     o	 When looking at expenses for curriculum development, web design, print design,
        presentation design, which includes technical experts, editors, designers, professional


  14-P-0131                                                                                       34
          narration, total costs are reasonable and anticipate an outlay for publication and
          presentation design to be over $2,500.
               Editors $1,000 – range in per/hour fees: 800-1600 words per hour. $50-125/hour
                  depending on level of content expertise required.
               Publication Designers $1,000 - $45-125 per page – anticipate 10 pages
               Presentation development – 40 hours at $45-100/hour
               Professional narration $500 - $500 per completed hour (prep, narrate, edit)
       o Printing/mailing costs for follow-up survey and color-brochures are reasonable
               Follow-up survey mailed to each school district (3,928 copies) – print $4,000
                  ($1/copy), send and return envelopes $800 = $4,800
               Tri-fold color brochure – estimate 4,000 copies at $1 each - $4,000
       o Postage ($1.20/envelope) = $4,714 per mailing
 SALARIES and WAGES $13,547:
       o	 Personnel: this project is receiving more commitment of time than what was sought in
          the budget
               0.04 FTE equates to 83 hours or just over two-weeks time for a lead coordinator
                  and assistant coordinator. This project will incur many more hours than
                  estimated. It is anticipated that a time commitment of 0.25 FTE would be more
                  appropriate. The base salary is $145,000 for the Extension Specialist (GS15
                  equivalent) and $116,250 (GS13 equivalent) for the Assistant position. These are
                  equitable salary ranges for senior university extension personnel when compared
                  to federal employee pay scales.
               Benefits are listed at 27.8% which covers health insurance premiums, dental, life
                  insurance premiums and Florida Retirement System Pension Plan and Investment
                  Plan.
	 TRAVEL $9,360: Travel: meets state requirements for per diem and least expensive travel
   options; believe this is under-budgeted for anticipated expenses
       o	 Estimate 2 interstate trips for 2 people (airfare, per diem) = $1,200 per trip x 4 = $4,800
       o	 Estimate 6 interstate trips for 2 people (mileage, per diem) = $440 per trip x 12 = $5,280

Similar to the University of Florida subgrant, NASDARF provided sufficient documentation to
demonstrate “reasonableness of costs” for the CropLife Latin America, Costa Rica project. We
refer OIG and EPA to our original response. CropLife Latin American project effort continues
EPA’s presence in supporting Central American pesticide safety education programs (El Salvador,
Honduras, Costa Rica, Nicaragua) (Attachment P and Q).

There is significant financial benefit with partners providing matching expenses: FLNC & their
partners will provide financial and substantial in-kind support, CLLA will provide $50,000 and will
provide oversight and accountability reporting for the program.

Personnel: CLLA and FLNC will provide personnel with expertise in implementing pesticide safety
train-the trainer programs and coordinating diverse stakeholder coalitions; expect to have additional
expert support from: Costa Rica Ministries of Agriculture, Labor, Environment, and Health;
pesticide manufacturers industry; University of Costa Rica; International Labor Organization;
Instituto Nacional de Aprendizaje (national training organization); Cooperativa de Productores de
Leche Dos Pinos (milk producers association); and other agricultural producer cooperatives.


   14-P-0131                                                                                      35
The reach of the outreach program includes farmers, managing applicators, pesticide handlers,
dealers, and field workers.

The project would be substantially more expensive if another entity conducted it because another
entity would need to expend time and resources to develop the strong connections with a broad
group of stakeholders and an understanding of the needs of pesticide applicators and other people
involved in pesticide sales, use, and disposal. Having the experience from other Latin American
countries is invaluable.

To augment the response, we provide the following information:

The one-year report (June 2004-2005) and budget from the 2003 CropLife Honduras project shows
a very similar scope of work, budgetary items and budgeting levels. The one-year budget which
trained over 8,000 people was nearly $48,000 (Salaries: $14,000, Supplies/Training Aids: $2,100,
Equipment: $4,800, Printed Materials: $4,600, Marketing/Communication: $ 2,000, and Travel
$18,800) (Attachment R).

NASDARF also compared what EPA/USDA typically provides to each well-established U.S. state
certified applicator education program ($30,000 base funds + additional funds based on the number
of certified applicators, requires 100% matching funds from the state); the proposed annual cost of
the Costa Rica effort (approx. $33,333 per year from NASDARF with matching funds from CLLA
and FLNC, as well as substantial in-kind support) and the proposed implementation costs appear
reasonable. Below are samples of four states from each region of the United States for the USDA
Budget year FY2008. The on the next page table indicates the total annual support level provided
by the EPA/USDA Funding and State Match. This total excludes agent and specialist salaries,
benefits and operations. The last column indicates the percentage of the total operating budget
supported by EPA/USDA. The Costa Rica project fits well within this range (Attachments S and
T).




  14-P-0131                                                                                     36
                                                                      approx. %
State Pesticide Safety Education Programs (PSEP)     Note: these are     of total
established programs. Source: Data from USDA base-support in FY2008       PSEP
allocation; funding originated from EPA                               operations
                                          USDA University
State                                                          Total              
                                        Funding     Match
Southern Region                                                                   
University of Georgia                    $42,668   $42,668 $85,336        100%
University of Arkansas                   $34,107   $34,107 $68,214          50%
Oklahoma State University                $38,164   $38,164 $76,328          25%
North Carolina State University          $48,766   $48,766 $97,532          40%
North Central Region                                                              
Iowa State University                    $47,142   $47,142 $94,284          20%
Kansas State University                  $32,696   $32,696 $65,392        100%
Michigan State University                $39,701   $39,701 $79,402        100%
North Dakota State University            $29,841   $29,841 $59,682          25%
Northeast Region                                                                  
Virginia Polytechnic Institute & State
                                         $28,925   $28,925 $57,850          15%
University
University of Massachusetts              $19,166   $19,166 $38,332          35%
University of Maine                      $18,003   $18,003 $36,006          33%
Pennsylvania State University            $47,169   $47,169 $94,338          15%
Western Region                                                                    
Colorado State University                $26,798   $26,798 $53,596          45%
University of Alaska                     $16,898   $16,898 $33,796          75%
University of Wyoming                    $33,474   $33,474 $66,948        100%
Washington State University              $43,083   $43,083 $86,166          15%

NASDARF also directs OIG to the Office of Grants and Debarment opinion related to the
procurement procedures for the University of Florida and CropLife Latin America awards, given
the controls already in place for awards of this type.

 OIG Response 6: The OIG acknowledges NASDARF’s discussion regarding the cost-price
 analysis and reasonableness of costs associated with the subgrants. However, since
 NASDARF did not document the analysis at the time of the procurement, it did not comply
 with federal requirements. Consideration of NASDARF’s after-the-fact explanations and
 documentation is at the discretion of EPA management and would require a formal deviation
 from agency policy in accordance with 40 CFR §30.4, Deviations.


OIG Charge: Other Unresolved Issue

In Chapter 6 of the OIG draft examination, OIG made the following charges:

       During our review of NASDA’s single-audit report for FY 2012, the OIG learned of an
       unresolved issue pertaining to a prior EPA agreement. Specifically, NASDARF reported and

  14-P-0131                                                                                  37
       drew funds of $118,324 for potentially unallowable costs under EPA Agreement No.
       83235401. Per the single-audit report, the costs were recorded as a refundable advance and
       represent funds received as of year-end but not yet earned. NASDARF initially considered
       the costs (incurred in 2006 and 2007) as unallowable and did not report them. NASDARF
       later reported the costs to the EPA as part of the closeout of the agreement in 2011.
       Although the EPA closed the agreement, NASDARF stated that the agency never made a
       determination on the allowability of the costs. NASDARF will recognize these funds as
       revenue once accepted by the EPA.

NASDARF Response to Chapter 6:

NASDARF has attached the letter officially closing this grant and funds have been released
(Attachment U).

 OIG Response 7: The OIG acknowledges that EPA closed the grant and released the funds.
 However, based on NASDARF’s comments to the OIG and the single audit report for
 FY 2012, allowability of the costs remains at issue. On this basis, the OIG continues to
 question the cost. The EPA should review and determine the allowability of the costs and
 recover any determined to be unallowable.

Conclusion

NASDARF appreciates OIG’s efforts and in response to these OIG findings, NASDARF modified
our subcontract for project management services and updated our written procurement procedures
to include OIG-recommended requirements pertaining to 40 CFR Part 30.

NASDARF is pleased to partner with EPA in providing these timely, lifesaving programs to
pesticide applicators around the U.S. and Central America. NASDARF will continue to work with
the Office of Pesticide Programs and the Office of Grants and Debarment to achieve the goals of the
program while maintaining a commitment to excellence.

We appreciate any opportunity to increase NASDARF efficiencies in our cooperative agreement
with EPA. We stand ready to work with our federal partners and OIG to continue to improve these
processes. Please let us know if you have any questions or would like to discuss further.

Sincerely,



Stephen Haterius
Chief Executive Officer, NASDA




  14-P-0131                                                                                     38
                                                                                   Appendix B

                   EPA’s Comments on Draft Report



              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            WASHINGTON, D.C. 20460
                                                                                       OFFICE OF
                                                                                 ADMINISTRATION
                                                                                  AND RESOURCES
                                                                                   MANAGEMENT
                                       December 20, 2013

MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report, Project No. OA-FY13-0140
          titled, “ National Association of State Departments of Agriculture Research
          Foundation (NASDARF) did not comply with certain Federal requirements and EPA
          award conditions”, dated November 5, 2013

FROM:         	Kysha Holliday
              Deputy Director, NPTCD

TO: 	         Robert K. Adachi.
              Director of Forensic Audits
              Office of the Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject draft
audit report. Attached is a summary of the Office of Grants and Debarment’s (OGD) and the Office
of Chemical Safety and Pollution Prevention’s (OCSPP) overall position regarding each report
recommendation.

AGENCY’S OVERALL POSITION

OGD and OCSPP generally agree with the Inspector General’s findings that NASDARF did not
comply with certain requirements of 40 CFR Part 30, 2 CFR Part 230, or its award conditions.


As described below, OGD and OCSPP agree with Recommendations 1 through 6.




  14-P-0131                                                                                    39
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements

        Recommendation                          Intended Corrective Action(s)             Estimated
No.                                                                                       Completion by FY
 1      Disallow and recover $571,626 of        1. OGD will provide NASDARF the           Within 180 days of
        questioned costs. If NASDARF            opportunity to submit documentation to    OIG issuing their
        provides documentation that             substantiate the questioned costs. OGD    final report or as
        meets appropriate federal               will review the documentation and take    soon as practicable
        requirements or demonstrates the        necessary corrective action, including
        fairness and reasonableness of          the recovery of all or part of the
        the subcontract and subgrant costs,     questioned subcontract and indirect
        the amount to be recovered may be       costs as well as funds drawn. OGD will
        adjusted accordingly.                   work with NASDARF to implement
                                                corrective actions to comply with
                                                federal requirements on assuring the
                                                reasonableness of sub-grants, sub-
                                                contracts, indirect costs and drawdown
                                                amounts.
 2      Require NASDARF to:                     2. OGD will provide NASDARF the           Within 180 days of
        a. Recalculate its indirect cost rate   opportunity to clarify its position and   OIG issuing their
        for FY 2011, excluding sub-grant        properly support its indirect rate and    final report or as
        and subcontract amounts in              require NASDARF to amend the rate         soon as practicable
        excess of $25,000; and submit to        where appropriate. OGD will review
        the NBC for approval, or ask the        NASDARF’s support and coordinate
        NBC to amend, the indirect              with DOI-NBC to review and amend the
        cost rate agreements to include an      ICR agreement as needed, then require
        equitable allocation base.              NASDARF to adjust claimed costs
        b. Claim indirect costs using the       according to the revised agreement.
        recalculated approved rates.
 3      Require NASDARF to calculate its        3. Where necessary, OGD will require      tbd
        indirect cost rates for years beyond    NASDARF to recalculate their indirect
        FY 2011 by excluding subgrant           costs rates to be in compliance with 2
        and subcontract amounts in excess       CFR 230 and coordinate with DOI-NBC
        of $25,000; or to be in accordance      to revise NASDARF’s rates. OGD will
        with any revised indirect cost rate     then require NASDARF to adjust
        agreement.                              claimed costs according to any revised
                                                ICR agreements.




     14-P-0131                                                                                      40
No. Recommendation                    Intended Corrective Action(s)                    Estimated
                                                                                       Completion by FY
 4   Require the following special    4. OGD will place NASDARF on                     Within 180 days of
     conditions be included for all   reimbursement for their active assistance        OIG issuing their
     current and future EPA           agreements. The Agency will require              final report or as
     awards until the EPA             NASDARF to provide supporting documents          soon as practicable
     determines that NASDARF          for costs incurred for the Agency’s review
     has met all applicable federal   prior to releasing funds for payment.            (ongoing)
     financial requirements:          NASDARF will remain on reimbursement
     a. Payment on a                  status until they have demonstrated to the
     reimbursement basis.             Agency that their financial management of
     b. Review and approval of        EPA agreements meets applicable federal
     reimbursement requests,          requirements for drawing grant funds.
     including all supporting
     documentation, prior to
     payment.
 5   Require NASDARF to               5. OGD will require NASDARF to comply            Within 180 days of
     establish controls for future    with the requirements of 40 CFR 30 and           OIG issuing their
     awards in order to ensure:       administrative conditions with respect to        final report or as
     a. Documentation is              documenting the justification of sole source     soon as practicable
     maintained in procurement        procurements and performing an adequate
     files to justify sole-source     cost or price analyses for procurements and
     procurements and to              sub awards to determine the reasonableness
     ensure compliance with 40        of cost.
     CFR §30.46.
     b. Compliance with 40 CFR
     §30.45 by conducting
     a cost or price analysis to
     determine reasonableness of
     costs.
     c. Compliance with
     administrative conditions of
     the award by determining and
     documenting the
     reasonableness of subgrant
     costs.
 6   Determine the allowability of    6. OGD and OCSPP will require NASDARF
     $118,324 of costs                to submit documentation for the costs in
     incurred under prior EPA         question incurred in 2007 under grant No.
     Agreement No. 83235401 and       83235401 to determine if they are allowable
     recover any costs determined     under the agreement. OGD and OCSPP will
     to be unallowable.               review the documentation and take necessary
                                      corrective action, including the recovery of
                                      costs as appropriate if they are determined to
                                      be unallowed.


14-P-0131                                                                                     41
OGD and OCSPP have a valued relationship with NASDARF and an obligation to manage
grants in accordance with federal fiduciary and stewardship standards. The Agency fully intends
to take the necessary corrective actions and work with NASDARF to resolve the findings of the
OIG audit once formally issued.

CONTACT INFORMATION
If you have any questions regarding this response, please contact Kysha Holliday, Deputy
Director of NPTCD at (202)564-1639 or Joe Lucia (202) 564-5378.


cc:
       Arthur A. Elkins Jr., Inspector General
       Angela Bennett, Project Manager, Office of the Inspector General
       Howard Corcoran, Office of Grants and Debarment
       Carolyn Schroeder, OCSPP, OPP-FEAD
       Deborah Hartman, OCSPP, OPP-FEAD
       Kevin Keaney, OCSPP, OPP-FEAD
       Jill Young, GIAMD
       Denise Polk, Director NPTCD
       Barbara Proctor, GIAMD-AAO
       Kristen Arel, GIAMD
       Bernadette Dunn, OCFO

bcc: none




14-P-0131                                                                                    42
                                                                              Appendix C

                                   Distribution
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division, Office of Administration
       and Resources Management
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Grants and Debarment, Office of Administration
       and Resources Management




14-P-0131                                                                                43
